CTSC No. PSC-190384.

IN THE SUPREME COURT OF THE UNITED STATES

Harold H. Burbank II
Petitioner

Vv.

Connecticut Office of the Chief Disciplinary Counsel
Respondent

CERTIFICATE OF SERVICE

I hereby certify that by October 19, 2020 I placed in US Mail three pre-
postage paid copies of my petition for certiorari and appendix in this matter
to Connecticut Office of Chief Disciplinary Counsel, 100 Washington Street.

Hartford, CT 06106, Phone 860.706.5054.

Harold H. Burbank, I]
US Supreme Court Bar #263904

  
 
     

 
